           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

    MISSION-CRITICAL OCCUPATION
         CORE COMPETENCIES

      May 2010    A-13-08-28099




  EVALUATION
    REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                             SOCIAL SECURITY
MEMORANDUM

Date:      May 26, 2010                                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Mission-Critical Occupation Core Competencies (A-13-08-28099)


           OBJECTIVE

           Our objective was to assess the Social Security Administration’s (SSA) efforts to
           identify and address competency gaps for select mission-critical occupations (MCO). 1
           Specifically, we reviewed the Social Insurance Specialist, Contact Representative,
           Legal Administrative Specialist, and Legal Assistant occupations.

           BACKGROUND

           SSA, like many other Federal agencies, is being challenged to address its human
           capital shortfalls. SSA expects many of its key workloads will increase significantly as
           baby boomers reach retirement age and their most disability-prone years. For example,
           SSA estimates its retirement, survivor, and Medicare applications will increase
           28 percent by Fiscal Year (FY) 2013. Further, the Agency projects 50 percent of its
                                                                                                  2
           employees, including 66 percent of supervisors, will be eligible to retire by FY 2018.
           The growing workload and retirement wave is expected to significantly impact SSA’s
           ability to deliver quality service to the public.

           To continue providing quality service to its customers, it is imperative that SSA staff in
           MCOs possess certain competencies. A competency is defined as a characteristic and
           measurable pattern of behaviors, skills, knowledge, beliefs, values, traits, or motives
           that cause superior performance and results within a defined job context. When there



           1
            The Office of Personnel Management (OPM) defines MCOs as those occupations agencies consider
           core to carrying out their missions. Such occupations usually reflect the organization’s primary mission.
           Without these occupations, mission-critical work cannot be completed.
           2
             SSA Retirement Wave Report: Component/Regional Analysis Fiscal Years 2009-2018. In addition, SSA
           projects approximately 51 percent of Social Insurance Specialists, 41 percent of Legal Administrative
           Specialists, 39 percent of Contact Representatives, and 51 percent of Legal Assistants will be eligible to
           retire by FY 2017. (SSA, 2008 Retirement Wave Mission Critical Occupations, FY 2007 – FY 2016.)
Page 2 - The Commissioner


is a difference between the competencies needed and the competencies possessed, a
gap exists. Gaps are an indication of the risks associated with not being able to
accomplish mission objectives.
                                           3              4
Both the Government Accountability Office and Congress have emphasized the
importance of hiring, retaining, and developing employees according to competencies.
Further, the Office of Management and Budget (OMB) and OPM asked agencies to
analyze segments of their workforces, identify competency gaps, and develop plans for
closing those gaps. 5 See Appendix B for more details regarding MCO guidance.

According to SSA’s 2008 Human Capital Management Report, some of the Agency’s
goals related to competencies were to

      • recruit and retain a diverse workforce with the critical competencies necessary to
        provide high quality, public-centered service;
      • develop competency standards for all MCOs; and
      • assess and identify competency/skill gaps for all MCOs and implement plans to
        close competency gaps among the workforce.
                                                            6
As of FY 2009, SSA had identified 15 MCOs (see Table 1). Fourteen were job-specific
series, and 1 (leadership) appeared in several of the other 14 MCOs. Of the 15 MCOs,
                           7                              8
4 were Government-wide, and 11 were Agency-specific.




3                                                              st
 GAO, Human Capital: Federal Workforce Challenges in the 21 Century, Testimony before the
Subcommittee on Financial Services and General Government, Committee on Appropriations, House of
Representatives GAO-07-556T, March 6, 2007.
4
 Report to the President: The Crisis in Human Capital. Report prepared by Senator George V.
Voinovich, Chairman, U.S. Senate, Committee on Governmental Affairs, Subcommittee on Oversight of
Government Management, Restructuring, and the District of Columbia, December 2000.
5
 OMB Memorandum for Chief Acquisition Officers, The 2007 Federal Contracting Workforce
Competencies Survey, October 17, 2007. OMB Memorandum for the President’s Management Council,
Human Capital Planning for the IT Workforce, April 15, 2005. OPM Memorandum for Human Resource
Directors, Human Resources Management Competency Assessment, April 10, 2007.
6
 In FY 2001, SSA identified 14 occupational series as mission critical. In FY 2006, the Agency added the
Human Resource Specialist to its list of MCOs. In FY 2007, SSA removed the Telecommunications
(General Schedule [GS]-0391) and General Telecommunications (GS-0392) positions and added the
Contract Specialist (GS-1102).
7
    GS-0201, 1102, 2210, and leadership.
8
    GS-0101, 0105, 0110, 0901, 0905, 0935, 0950, 0962, 0986, 0998, and 1510.
Page 3 - The Commissioner



                                     Table 1: SSA’s MCOs
                                                            Number of Employees
               MCO                         GS Series         as of June 30, 2009           Percent
Social Science Research                      0101                        42                   0.1
Social Insurance Specialist                  0105                    28,006                  48.3
Economist                                    0110                        36                   0.1
Human Resource Specialist                    0201                       659                   1.1
Legal Administrative Specialist              0901                     3,559                   6.1
General Attorney                             0905                     2,131                   3.7
Administrative Law Judge                     0935                     1,171                   2.0
Paralegal Specialist                         0950                     1,439                   2.5
Contact Representative                       0962                    11,933                  20.6
Legal Assistant                              0986                     3,451                   6.0
Claims Assistance and Examining              0998                     1,709                   2.9
Contract Specialist                          1102                        90                   0.2
Actuary                                      1510                        44                   0.1
Information Technology Specialist            2210                     3,721                   6.4
TOTAL                                                                57,991                   100

As of June 30, 2009, 57,991 (89 percent) of SSA’s 65,034 employees were serving in
MCOs. The remaining 11 percent encompassed about 100 job series that included
such positions as Management Analysts (GS-0343), Benefits and Records Technicians
(GS-0303), and Criminal Investigators (GS-1811). For our review, we selected the four
MCOs with the highest number of employees—which accounted for approximately
81 percent of the employees working in MCOs (as shown in Table 2). 9 During our
review, we did not question SSA’s classification of these occupations as mission-critical
nor did we determine the number of employees in each occupational series was the
appropriate number.




9
 The Information Technology Specialist, General Schedule (GS) 2210, was the third largest MCO with
approximately 3,700 employees. However, this MCO was excluded from our analysis because it was the
subject of a separate review, The Social Security Administration’s Hiring and Training of Information
Technology Specialists (A-13-09-19082).
Page 4 - The Commissioner



                                      Table 2: Selected MCOs
                                                                   Number of Employees
                           MCO                        Series        As of June 30, 2009
                                        10
            Social Insurance Specialist                0105                 28,006
            Legal Administrative Specialist 11         0901                  3,559
            Contact Representative 12                  0962                 11,933
            Legal Assistant 13                         0986                  3,451
                                                                                   14
            Total                                                           46,949

The selected MCOs consist of positions that are crucial to providing service to the
public, such as Claims Representatives, Benefit Authorizers, Service Representatives,
and Case Technicians. (See Appendix C for position descriptions of the selected
MCOs.) Approximately 96 percent of the employees serving in these MCOs worked
under the Deputy Commissioners for Operations (DCO) and Disability Adjudication and
Review (DCDAR). See Appendix D for more information on the scope and
methodology of this review.

RESULTS OF REVIEW
SSA has taken actions to identify and address competency gaps in MCOs. However,
additional efforts are needed. We found the Agency identified competencies for a
segment of the selected MCOs—rather than the entire series. For example,
competencies for the Social Insurance Specialist series (GS-0105) were identified for
employees in grade levels 5 and 7. However, competencies were not identified for
employees in grade levels 9 through 13. 15 Further, SSA did not perform gap analyses
or develop improvement plans for all MCOs. Without identifying the competencies
needed for each position and the type or amount of gaps that exist, we believe the
Agency cannot be assured that all competency gaps possessed by the employees

10
  The Social Insurance Specialist comprises various positions including Claims Representatives, Claims
Authorizers, Social Insurance Specialists, Technical Experts, District Managers, Management Support
Specialists, Operations Supervisors, and Supervisory Social Insurance Specialists. The employees in this
MCO primarily work under the DCO.
11
  The Legal Administrative Specialist MCO comprises various positions including Benefit Authorizers and
Benefit Technical Examiners. The employees in this MCO primarily work under the DCO.
12
  The Contact Representative MCO comprises various positions including Teleservice Representatives,
Contact Representatives, Service Representatives, Technical Support Technicians, and Customer
Service Technicians. The employees in this MCO primarily work under the DCO.
13
  The Legal Assistant MCO comprises various positions including Case Technicians, Case Intake
Technicians, and Legal Assistants. The employees serving in this MCO primarily work under the DCDAR.
14
     This total includes leadership positions within the selected MCOs.
15
   In the four selected MCOs—GS-0105, 0901, 0962, and 0986 series—the employee grade level ranged
from GS-5 to Senior Executive Service (SES), GS-5 to 11, GS-4 to 13, and GS-4 to 10, respectively.
Page 5 - The Commissioner


filling these select positions are reduced or closed. Since these MCOs are essential to
SSA meeting its mission and goals, and SSA’s programs impact the lives of virtually all
Americans, it is imperative that the Agency identify competencies and address gaps in
these MCOs.

IDENTIFICATION OF COMPETENCIES

According to the Agency's FY 2009-2011 Strategic Human Capital Plan, SSA identified
competencies for all 15 MCOs. The Agency uses these competencies to recruit,
develop its workforce, and affect its retention strategies. However, based on our
review, we determined SSA only identified competencies for a segment of the selected
MCOs, rather than the entire position series (see Table 3).

                           Table 3: Competencies for Selected MCOs
                       Applicable
        MCO           Positions and                            Competencies
                       Grade Level
Social                  GS-5 and         •   Reading                  •   Integrity/Honesty
Insurance                 GS-7           •   Writing                  •   Self-Management
Specialist
           16
                                         •   Arithmetic               •   Interpersonal Skills
(GS-0105)                                •   Mathematical Reasoning   •   Attention to Detail
                                         •   Oral Communication       •   Customer Service
                                         •   Decision Making          •   Stress Tolerance
                                         •   Reasoning                •   Flexibility
                                         •   Problem Solving          •   Technology Application
                                         •   Learning                 •   Technical Competence
                                         •   Self-Esteem              •   Memory
                                         •                            •
                                                                                      17
                                             Teamwork                     Leadership
Legal                   GS-5 and         •   Reading                  •   Integrity/Honesty
Administrative           GS-7            •   Writing                  •   Self-Management
Specialist                               •   Arithmetic               •   Interpersonal Skills
(GS-0901)                                •   Mathematical Reasoning   •   Planning and Evaluating
                                         •   Oral Communication       •   Attention to Detail
                                         •   Information Management   •   Customer Service
                                         •   Decision Making          •   Stress Tolerance
                                         •   Problem Solving          •   Flexibility
                                         •   Learning                 •   Technology Application
                                         •   Self-Esteem              •   Technical Competence
                                         •   Teamwork                 •   Memory




16
 OPM identified the competencies for the Social Insurance Specialist and Legal Administrative Specialist
MCOs in March 2006 using focus groups of SSA employees.
17
     Leadership is a critical competency for GS-7s only.
Page 6 - The Commissioner



                   Table 3 (continued): Competencies for Selected MCOs
                       Applicable
        MCO           Positions and                                Competencies
                       Grade Level
Contact              Teleservice          •   Computer Competence         • Integrity/Honesty
                                    18
Representative       Representative       •   Technical Credibility       • Teamwork
(GS-0962)                                 •   Accountability              • Relationship Skills
                                          •   Business Understanding      • Resilience
                                          •   Customer Service            • Analytical Skills
                                          •   Decisiveness                • Continual Learning
                                          •   Flexibility                 • Information Search Skills
                                          •   Service Motivation          • Oral Communication
                                          •   Conflict Management         • Problem Solving
Legal Assistant        Senior Case        •   Issue Analysis and          • Processing Representative
          19
(GS-0986)              Technician,            Summaries                     Fees
                      GS-8, 7, and 6      •   Pre/Post Development        • Mailing Cases
                                          •   Case Work-up                • Training/Technical Assistance
                                          •   Computer Operation
                                          •   Oral and Written
                                              Communication

In addition to the positions and grade levels noted above, the Agency identified
competencies for the leadership series 20 (see Appendix E). In total, these positions
only represented about 30 percent of the employees in the selected MCOs. Therefore,
the remaining 70 percent of the employees may not have the competencies necessary
to complete mission-critical work.

During our review, we requested documentation regarding competencies for the other
                               21
positions in our selected MCOs. However, as of December 2009, we had not
received adequate supporting documentation. In December 2009, SSA’s Human
Capital Planning Staff (HCPS) provided documentation containing competencies for the
following positions: Claims Representative, Service Representative, Teleservice
Representative, Claims Authorizer, Benefit Authorizer, and Technical Support
Technician. According to HCPS, these documents were created by a contractor.
However, staff acknowledged the documentation was inconclusive as to whether the
competencies applied to all employees in these positions, as they were unable to locate


18
  SSA retained a contractor to evaluate training for the Teleservice Representative. As part of this effort,
the contractor was asked to identify the competencies for this position. The competencies were
developed as a result of an October 2002 workshop as well as other research data.
19
     DCDAR identified the competencies for the Legal Assistant MCO during FYs 2008-2009.
20
     According to HCPS, the leadership series includes positions with an "s" in the position description.
21
  According to SSA’s 2006-2007 Human Capital Plan and its January 2008 Mission Critical Skill Gap
Improvement Plan, competencies were identified for the Claims Representative, Service Representative
and Teleservice Representative in FY 2003 as well as the Claims Authorizer and Technical Support
Technician in FY 2005. These competencies were developed as part of the Agency’s Training Redesign.
Page 7 - The Commissioner


the contractor’s entire report. Therefore, we were unable to confirm whether the
Agency identified competencies for all the remaining positions in the specific MCOs.

IDENTIFICATION OF COMPETENCY GAPS

SSA developed a Mission Critical Skill Gap Improvement Plan and MCO timeline.
Based on these documents, the Agency planned to assess all its MCOs by the end of
FY 2009 to ensure every MCO had gone through the entire competency process. (See
Appendix F for a description of SSA’s competency process.) However, we determined
the Agency did not meet its goal.

As of FY 2009, SSA reported competencies had only been assessed for 7 of its
          22
15 MCOs. HCPS confirmed the Agency did not conduct gap analyses to identify
competency gaps for the four MCOs we examined. In addition, no time frame had been
established for assessing these MCOs.

According to HCPS, these MCOs were not assessed because of the Agency's
                                                     23
American Recovery and Reinvestment Act of 2009 activities, backlogged workloads,
and political sensitivities attached to the ongoing work related to these four MCOs. The
Agency was seeking an agreed-upon methodology for studying the employee
proficiency levels that would allow it to obtain necessary information without pulling
many management employees off-line to complete the survey. 24

According to HCPS, the impact of not assessing the selected MCOs in a formalized
process was negligible because the Agency was indirectly addressing competencies
through the amount and availability of training provided to employees. However,
without knowing the type or amount of gaps that exist, we believe the Agency cannot be
assured that all competency gaps possessed by these employees are reduced or
closed.

The 4 MCOs selected for our review represented 46,949 (72 percent) of the
65,034 employees in the Agency's workforce and, according to SSA, are considered
critical to the Agency achieving its mission. Therefore, SSA needs to perform gap
analysis to identify and address any competency gaps possessed by the employees in
these select occupations.




22
  These seven included (1) Social Science Research Analyst 0101, (2) Economist 0110, (3) Actuary
1510, (4) Contract Specialist 1102, (5) Human Resources Specialist 0201, (6) Information Technology
Specialist 2210, and (7) Leadership series.
23
 Pub. L. No. 111-5. OMB, Updated Implementing Guidance for the American Recovery and
Reinvestment Act of 2009, M-09-15, April 3, 2009.
24
  HCPS estimates the survey would take about 45 minutes to complete. However, the survey time would
vary depending on the number of employees for whom a manager was reporting.
Page 8 - The Commissioner


REDUCTION OF COMPETENCY GAPS

SSA acknowledged the development of its employees was critical to the Agency’s
success, particularly those in MCOs. Although the Agency did not complete a
formalized gap analysis or develop an improvement plan, it took various actions to
address competencies in its MCOs, such as competency-based training, leadership
self-assessment and training, development programs, a competency assessment
interview process (CAIP), and an annual employee survey.

Competency-Based Training

When SSA first anticipated the losses due to the retirement wave, it began minimizing
the loss of mission-critical skills through training. The Office of Operations works with
the Office of Learning to ensure the timing of hiring and entry level training are aligned.
SSA provides training to its employees nationwide using various methods, including
classroom, on-line, video on demand, interactive video teletraining, and SSA Learn. 25
(See Appendix G for additional information on SSA’s training methods.)

We determined SSA developed competency-based training for the four MCOs.
Specifically, the Agency developed training for the Claims Representative, Claims
Authorizer, Claims Technical Examiner, Management Support Specialist, Operations
Supervisor, Benefit Authorizer, Service Representative, Teleservice Representative,
Teleservice Center Management, Case Technician, and Legal Technician. (See
Appendix H for details regarding the competency-based training.)

Leadership Self-Assessment and Training

The Office of Learning maintains an on-line leadership competency tool that enables
employees to assess themselves on each of the critical leadership competencies. This
provides staff with information regarding their level of proficiency in each competency
area. This assessment not only provides feedback regarding competency gaps but
identifies related on-line training courses that may assist in addressing any deficiencies.

SSA recognized that its leaders include both new and experienced supervisors/
managers. Therefore, SSA uses a blended approach to meet the developmental needs
of both groups. New and experienced supervisors receive training under the Transition
to Leadership Curriculum. For example, SSA offers Agency-wide leadership training
through a monthly Transition to Leadership interactive video teletraining series. The
series includes a monthly broadcast featuring a nationally acclaimed presenter on a




25
     SSA Learn is an Internet-based e-Learning site that offers over 3,000 on-line courses.
Page 9 - The Commissioner


variety of leadership topics related to at least 1 of the 16 critical leadership
competencies. 26 Further, SSA offers forums and symposiums to address
competencies for its mid-level managers. 27

Development Programs

SSA also implemented several national programs to develop and enhance leadership
competencies. For example, SSA periodically runs an SES Candidate Development
Program, an Advanced Leadership Program (ALP), and a Leadership Development
Program (LDP). 28

 The SES Candidate Development Program is conducted over a period of 18 to
  24 months. It is open to GS-15 or equivalent employees and GS-14 and
  GS-13 employees who have 1 year of experience at the GS-14 level. The program
  is designed to prepare employees to assume executive responsibilities. Candidates
  must prepare an Individual Development Plan that identifies work experience and
  training activities designed to assist them in attaining the goals of improved
  performance and career development. Candidates who complete all elements of the
  program may request SES certification from OPM. However, candidates who are
  approved for certification are not guaranteed placement in an SES position.
 The ALP is an 18-month program that prepares GS-13 and 14 employees to
  become future Agency leaders by providing them training and higher-level
  developmental experiences. Participants select a mentor who assists them in
  creating an Individual Development Plan that identifies a variety of rotational
  assignments, training courses, and other developmental experiences directed toward
  developing and enhancing specific leadership competencies. Participants who
  successfully complete the program receive a 3-year Certification of Eligibility for one
  noncompetitive promotion to a position at the next higher grade for which they are
  eligible.
 The LDP is an 18-month program that offers GS-9 through 12 employees a variety of
  developmental experiences through rotational assignments and training directed
  toward developing specific leadership competencies. Employees are selected to
  participate in this program based on a competitive process similar to the procedures
  used for the SES and ALP programs. Participants who successfully complete this
  program also receive a Certificate of Eligibility.

26
  Examples include Managing, Retaining, and Recruiting Different Generations, Managing and the Art of
Coaching, Raising Productivity and Morale to Create an Inclusive Environment, Your Leadership Makes a
Difference, and Coaching and Feedback for Impact.
27
  SSA offers a 3-day, off-site, Leadership Matters symposium to mid-level managers Agencywide. The
Agency reports competencies enhanced are technology, financial, and human resources management,
team building, conflict management, and creativity/innovation.
28
  SSA reported the LDP that ended in FY 2007 had a 43-percent placement rate for its participants. The
ALP that ended in July 2008 graduated 80 participants and had a 58-percent placement rate. The SES
Candidate Development Program ended in July 2007 and had a 58-percent placement rate.
Page 10 - The Commissioner


Competency Assessment Interview Process

According to HCPS, CAIP is an example of a tool used to control skill gaps. CAIP was
developed and piloted in FY 2003 and was used to interview external applicants for the
Claims Representative position. CAIP includes questions on each competency, rating
scales for each competency, and a composite rating sheet.

During the interviews, specific questions are used to determine how well
each candidate demonstrates seven important competencies that effective Claims
Representatives generally bring to the job. However, they do not represent all the
competencies required in the Claims Representative position. Once hired, candidates
are expected to develop other competencies on the job. CAIP includes the
competencies of customer service orientation, self management, interpersonal
sensitivity, planning and organizing, decisionmaking/judgment, analytical
thinking/problem solving, and communications.

Annual Employee Survey

SSA conducts an annual survey of its employees, which serves as a barometer of
employee satisfaction and engagement. We obtained and reviewed the survey
completed in 2007. The survey was administered to over 1,900 SSA employees and
included 40 questions that covered major human capital areas, such as recruitment,
development, retention, performance culture, leadership, job satisfaction, and personal
work experiences. The survey included items that assessed (1) how well the Agency
addressed skills, knowledge, and competency gaps by recruiting people with the right
skills; (2) training and development of employees; and (3) retaining a diverse, high-
performing workforce through employee engagement and retention-related programs.
About 71 percent of those surveyed believed the workforce had the job-relevant
knowledge and skills necessary to accomplish organizational goals. Also, over
50 percent of survey participants were satisfied with the training they received for their
present job and felt they were given a real opportunity to improve their skills.

The survey reported the Agency's workforce had become increasingly more proficient in
the competencies necessary for success. For example, SSA had a 93-percent overall
retention rate, which the Agency believes can be attributed to employee engagement in
the work they do. SSA reported newly hired employees often leave because of the lack
of "fit" of their skills, abilities, and interests with the job. The Agency attempts to
address "employee fit" early by finding employees with the right competencies and
motivation for the targeted position. From 2006 to 2007, the percentage of people who
believed their unit was able to recruit people with the right skills increased by
9.3 percent.

In 2008, OPM administered the survey to about 5,960 SSA employees. It included
questions that addressed employee satisfaction and engagement across several
different human capital areas. Similar to the prior year, approximately 72 percent of
those surveyed believed the workforce had the job-relevant knowledge and skills
Page 11 - The Commissioner


necessary to accomplish organizational goals. Also, over 57 percent of survey
participants were satisfied with the training they received for their present job and about
62 percent believed they were given a real opportunity to improve their skills.

CONCLUSION AND RECOMMENDATIONS
SSA continued to be a leader in addressing its human capital challenges and took
actions to improve its MCOs. The Agency is committed to meeting its human capital
challenges to enable it to keep providing the services its customers deserve. However,
given the significance of the selected MCOs, the Agency should increase its efforts to
identify competencies and address competency gaps. Specifically, we recommend
SSA:

1. Use a risk-based approach to identify competencies for the remaining positions in
   the GS-0105, 0901, 0962, and 0986 series and develop and implement a strategy to
   periodically assess the relevancy of the competencies.

2. Conduct analysis to determine whether competency gaps exist in the GS-0105,
   0901, 0962, and 0986 series. If appropriate, develop and implement strategies to
   address any identified competency gaps.

AGENCY COMMENTS

SSA agreed with our recommendations. See Appendix I for the full text of the Agency’s
comments.




                                                 Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Mission-Critical Occupation Guidance

APPENDIX C – Position Descriptions for Selected Mission-Critical Occupations

APPENDIX D – Scope and Methodology

APPENDIX E – Leadership Competencies

APPENDIX F – The Social Security Administration’s Competency Process

APPENDIX G –Training Methods

APPENDIX H – Competency-Based Training for Selected Mission-Critical Occupations

APPENDIX I – Agency Comments

APPENDIX J – OIG Contacts and Staff Acknowledgments
                                                                   Appendix A

Acronyms
ALP           Advanced Leadership Program
BA            Benefit Authorizer
BTE           Benefit Technical Examiner
CA            Claims Authorizer
CAIP          Competency Assessment Interview Process
C.F.R.        Code of Federal Regulations
CHCO          Chief Human Capital Officers
CR            Claims Representative
CTE           Claims Technical Examiner
DCDAR         Deputy Commissioner for Disability Adjudication and Review
DCO           Deputy Commissioner for Operations
FY            Fiscal Year
GS            General Schedule
HCPS          Human Capital Planning Staff
IVT           Interactive Video Teletraining
LDP           Leadership Development Program
MCO           Mission-Critical Occupation
OMB           Office of Management and Budget
OPM           Office of Personnel Management
Pub. L. No.   Public Law Number
SES           Senior Executive Service
SME           Subject Matter Expert
SR            Service Representative
SSA           Social Security Administration
TL            Transition to Leadership
TSR           Teleservice Representative
U.S.C.        United States Code
VOD           Video on Demand
                                                                      Appendix B

Mission-Critical Occupation Guidance
We identified an array of guidance pertaining to mission-critical occupations (MCO).
Specifically, we held discussions with Social Security Administration (SSA) personnel
and examined Agency plans and reports that addressed various aspects of MCO
activities. In addition, we identified guidance applicable to all Federal agencies—such
as information from the Offices of Personnel Management (OPM) and Management
and Budget (OMB)—pertaining to MCOs.

According to SSA’s Mission Critical Skill Gap Improvement Plan, OPM presented
instructions on how to address MCOs during an August 2005 workshop. Specifically,
agencies were required to submit a plan for reducing mission-critical skill gaps. This
plan, containing the strategy for identifying and closing potential gaps in each MCO,
was due to OPM by December 31, 2005. SSA reported it submitted the initial planning
document at that time. However, the Agency updated its Mission Critical Skill Gap
Improvement Plan in January 2008, which provided the status of the Agency's activities.
SSA’s Human Capital Planning Staff (HCPS) stated the Agency received concurrence
from OPM regarding its timeline.

According to SSA, OPM instructed agencies to close competency gaps in MCOs by
2009. However, OPM did not provide a Government-wide strategy on how agencies
must close competency gaps for MCOs. Agencies had to develop their own timeline for
addressing MCOs. HCPS explained when they developed SSA’s timeline, they
considered what was going to work best for the Agency in terms of the impact on its
operations. Specifically, SSA considered various items, including the number of
employees in each targeted series; the existence of current strategies to minimize gaps;
and the need for, and availability of, automated tools to assess skill/competency gaps.

From the Government-wide perspective, OPM was addressing the impending
retirement wave by requiring that all agencies reduce skill gaps in specific MCOs.
There were only two deadlines required for closing competency gaps. The following
target dates were outlined in OPM's Strategic and Operational Plan.




                                           B-1
    Target Date
    for Closing
    Competency           Affected MCO                     OPM Target Language,
       Gaps               and Series                    Goal ID, and Date Requested
    October 1, 2006     Human Resources        Set targets for closing competency gaps in the Human
                          Management           Resources Management Specialist occupation by
                         Specialist, 0201      October 1, 2006 at all Chief Human Capital Officer
                                               (CHCO) agencies (Goal ID D5 requested
                                               September 14, 2006).
    October 1, 2009    Acquisition/Contract    Work with CHCO Council to set targets for closing
                       Specialist Workforce,   competency gaps for acquisition workforce by
                               1102            December 1, 2007; close competency gaps in 15 CHCO
                                               agencies, including OPM, by October 1, 2008; and all
                                               CHCO agencies by October 1, 2009 (Goal ID C-20
                                               requested September 25, 2007).

In addition to OPM's requirements for the 0201 and 1102 series, OMB issued a
memorandum requesting agencies to analyze important job activities and develop and
submit plans for closing information technology skill gaps. These plans were due to
OMB by August 30, 2005. However, there were no specific deadlines for closing
competency gaps in the four MCOs we reviewed.

Changes in MCO Deliverable Requirements

HCPS explained that the MCO guidance received from OPM and OMB was primarily
verbal. Other than OPM’s guidelines for preparing gap closure deliverables, 1 the
Agency did not receive any other written guidance. The OPM guidelines provide
information on preparing the following documents.

 Gap Analysis Report. This Report reflects an agency's analysis of the supply and
  demand of strategic competencies in its MCOs. The Report is based on the
  agency's workforce planning results as well as other competency management
  activities. The Report includes a description of the competencies being targeted for
  closure in MCOs in the agency. The Report should describe how the competencies
  targeted for closure align with mission accomplishment and strategic priorities. The
  Report should also include a competency assessment methodology that documents
  how competencies are determined and assessed as well as any relevant information
  to validate the methodology.

 Improvement Plan. The Plan describes the organization's strategy and tactics for
  closing competency gaps. The Plan includes (1) the tactics the agency has chosen
  to close the targeted competency gaps, such as training, recruitment, and staff
  redeployment; (2) the rationale for the selection of the tactics; (3) the deliverables,
  milestones, and timelines; (4) a description of the evidence the agency will provide

1
 OPM, Proud to be 5, Mission Critical Occupations Guidelines for Preparing the Gap Closure
Deliverables, Performance Period July 1, 2007 through June 30, 2008.


                                                 B-2
     OPM demonstrating that competency gaps are closed; and (5) the person
     accountable for executing the plan.

 Progress Report. This Report is a status check of how well the agency is
  implementing its strategies for closing competency gaps and achieving its overall
  objectives. It can also describe any changes, such as budget freezes and strategic
  plan changes, that necessitate an update to the original gap analysis report and
  improvement plan. The Report includes (1) deliverable and milestone achievement;
  (2) progress in closing competency gaps; (3) data collection process for planned
  program evaluation; and (4) any changes and their impact on the original gap
  analysis and improvement plan.

 Measure Results Report. This Report documents an organization's results in
  closing competency gaps in MCOs. The bases for this Report are the Gap Analysis
  Report and Improvement Plan. The Measure Results Report includes a discussion
  of the extent to which stated goals have been achieved, including gap closure
  targets, specific milestones, and deliverables. It also includes an assessment of the
  effectiveness of chosen strategies and tactics for closing competency gaps, including
  lessons learned and possible new strategies for future competency gap closure
  efforts. In addition, the report includes an updated Competency Profile 2 and MCO
                    3
  Resource Table.

Previously, these reports were due each quarter. However, SSA’s efforts pertaining to
competencies are now broadly summarized and reported annually as part of its Human
Capital Management Report.

OPM adopted a Human Capital Assessment and Accountability Framework and related
systems (Human Capital Assessment and Accountability Framework Systems,
Standards, and Metrics) to guide agencies in planning, evaluating, and improving the
efficiency and effectiveness of agency human capital management with respect to
identifying and closing competency/skill gaps in the agency's mission critical
occupations. Agencies are required to maintain a current human capital plan and
provide OPM an annual Human Capital Management Report. The Human Capital
Assessment and Accountability Framework Systems, Standards, and Metrics provides
specific information on the coverage and content for the plan and report. For example,
the plan must identify potential shortfalls or gaps, describe the occupations most critical
to agency performance, and describe mission-critical competencies and key
demographics (for example, talent analysis, turnover and retirement eligibility). 4


2
 The profile chart contains data on competency gaps and surpluses. It contains information from the
beginning of the measurement year and the results achieved by the end of the measurement year.
3
 This resource chart contains data on the number of employees and calculations on staffing gaps and
surpluses. Agencies are required to provide resource chart data to OPM at the beginning and end of the
measurement year.
4
    5 C.F.R. §§ 250.202 and 250.203.


                                                  B-3
HCPS informed us that the Agency had limited deliverable requirements because the
MCO deliverables were discontinued. HCPS indicated the Agency only received verbal
confirmation of the end, as neither OMB nor OPM supplied written documentation.
New MCO guidance has not been issued.

Prioritization of MCOs

According to HCPS, OPM and OMB’s requirements dictated the order in which the
agencies’ MCOs were assessed. Specifically, OPM and OMB required that agencies
assess the Information Technology, Human Resources, and Contracting/Acquisition
          5
positions. In addition to these positions, SSA identified competencies and performed
gap analysis for other positions. HCPS selected the unique positions to assess first—
Actuary and Economist. With these two positions, HCPS only had to coordinate with
one component. HCPS indicated they wanted to get more experience with the process
before tackling a much larger MCO involving several different components.

For occupational series with employee populations fewer than 100 employees,
HCPS stated it used survey software and developed an assessment spreadsheet to
assess competencies and identify gaps. However, HCPS reported the Agency was
researching options that would allow it to gather data on larger employee populations.
All 4 of our selected MCOs contained more than 100 employees, thus falling into this
category.




5
 OMB Memorandum for Chief Acquisition Officers, The 2007 Federal Contracting Workforce
Competencies Survey, October 17, 2007. OMB Memorandum for the President’s Management Council,
Human Capital Planning for the IT Workforce, April 15, 2005. OPM Memorandum for Human Resource
Directors, Human Resources Management Competency Assessment, April 10, 2007.


                                              B-4
                                                                                      Appendix C

Position Descriptions for Selected Mission-
Critical Occupations
The Social Insurance Specialist (GS-0105), Legal Administrative Specialist (GS-0901),
Contact Representative (GS-0962), and Legal Assistant (GS-0986) mission-critical
occupations (MCO) play a vital role in the Agency providing services to the public.
Below is a summary of the position descriptions for each of the selected MCOs.

      MCO                                          Position Description
Social Insurance       This series consists of positions that involve managing, supervising, or
Specialist 1           performing work concerned with the administration and operation of
                       national social insurance and need-based benefit programs. This includes
                       adjudicating, authorizing, or reconsidering claims for benefits. 2
                       Positions included in this series primarily require knowledge of the laws,
                       regulations, principles, and operating requirements of the interrelationships
                       among Federal and State programs, analytical and technical skills, and
                       abilities used in planning, developing, evaluating, or carrying out the
                       operation and delivery of these programs to the public.
Legal                  This series covers administrative positions that supervise, lead, or perform
Administrative         work involving two or more series in the Legal and Kindred Group. 4 These
Specialist 3           positions require legal and kindred administrative knowledge but are not
                       covered by an existing administrative series within the group. This work
                       involves (1) supervising or performing administrative work concerning
                       benefits and services available to the public, (2) claims and claims
                       examining, and (3) entitlement to Federal retirement benefits, including
                       adjudication and reconsideration of entitlement decisions.



1
 The Social Insurance Specialist MCO consists of various positions including Claims Representatives,
Claims Authorizers, Social Insurance Specialists, Technical Experts, District Managers, Management
Support Specialists, Operations Supervisors, and Supervisory Social Insurance Specialists. The
employees serving in this MCO primarily work under the Deputy Commissioner for Operations (DCO).
2
  Adjudicating the claim refers to the process of determining whether the claimant is eligible and entitled to
benefits for which he/she filed the claim. Authorizing the claim refers to exercising the Agency’s authority
to allow or disallow the claim. Reconsidering the claim refers to a thorough and independent
reexamination of the claim.
3
 The Legal Administrative Specialist MCO consists of various positions including Benefit Authorizers and
Benefit Technical Examiners. The employees serving in this MCO primarily work under DCO.
4
  The occupational series covered by the Office of Personnel Management’s Job Family Position
Classification Standard for Assistance Work in the Legal and Kindred Group (GS-0900) includes the
following: Contact Representative (GS-0962), Legal Instruments Examining (GS-0963), Legal Assistance
(GS-0986), and Claims Assistance and Examining (GS-0998).

                                                     C-1
         MCO                                      Position Description
    Contact             This series covers administrative support positions that (1) supervise,
    Representative 5    lead or perform support and related work in connection with dispersing
                        information to the public on rights, benefits, privileges, or obligations
                        under a body of law; (2) explaining pertinent legal provisions,
                        regulations and related administrative practices as they apply to
                        specific cases; and (3) assisting individuals in developing evidence
                        and preparing required documents or in resolving errors, delays or
                        other problems in obtaining benefits or fulfilling obligations.
    Legal Assistant 6   This series covers administrative support positions that supervise,
                        lead, or perform legal assistance work not classifiable in any other
                        series in the Legal and Kindred Group, GS-0900. The work requires
                        specialized knowledge of processes, procedures, and practices to
                        support legal activities. This series also covers administrative support
                        positions that perform various legal assistant support functions,
                        including assistance in conducting hearings or judicial proceedings,
                        case management, litigation, debt collection, and other similar types of
                        activities.




5
 The Contact Representative MCO consists of various positions including Teleservice Representatives,
Contact Representatives, Service Representatives, Technical Support Technicians, and Customer
Service Technicians. The employees serving in this MCO primarily work under DCO.
6
 The Legal Assistant MCO consists of various positions including Case Technicians, Case Intake
Technicians, and Legal Assistants. The employees serving in this MCO primarily work under the
Deputy Commissioner for Disability Adjudication and Review.

                                                 C-2
                                                                                     Appendix D

Scope and Methodology
To accomplish our objective, we:

• Reviewed various Social Security Administration (SSA) documents related to Human
  Capital. 1

• Reviewed prior Office of the Inspector General and Government Accountability Office
  reports.

• Reviewed relevant Federal laws, regulations, and guidance.

• Reviewed data pertaining to SSA’s mission-critical occupations (MCO), including
  SSA’s position descriptions and the Office of Personnel Management’s position
  classifications.

• Obtained documentation regarding training provided to employees in MCOs.

• Interviewed personnel from the Office of the Deputy Commissioner for Human
  Resources’ Human Capital Planning Staff.

• Selected 4 of the Agency’s 15 MCOs for review, based on the occupations with the
  largest number of employees as of October 2007. Although the Information
  Technology Specialist was the MCO with the third largest employees, this MCO was
  excluded as it was evaluated as part of a separate review. 2




1
 Documents included SSA’s Fiscal Year (FY) 2009-2011 Strategic Human Capital Plan; FY 2009 Human
Capital Implementation Plan; FY 2008 Human Capital Management Report; 2008 Retirement Wave
Mission Critical Occupations, FY 2007-2016; FY 2006 Human Capital Accountability Report; Human
Capital Accountability System, July 2006; and Strategic Leadership Succession Plan, September 2006.
2
 The Social Security Administration’s Hiring and Training of Information Technology Specialists
(A-13-09-19082). The objective of this review was to assess SSA’s human capital activities related to the
hiring, training, and retention of staff that occupy the mission-critical position of Information Technology
Specialist.

                                                    D-1
During our review, we did not evaluate whether the occupations SSA classified as
mission-critical, or the number of employees in each position, were appropriate. We
performed our review at SSA’s Headquarters in Baltimore, Maryland, from
September 2008 to December 2009. The entity reviewed was the Office of the
Deputy Commissioner for Human Resources. We conducted our review in accordance
with the Council of the Inspectors General on Integrity and Efficiency’s Quality
Standards for Inspections.




                                        D-2
                                                                                    Appendix E

Leadership Competencies
According to the Social Security Administration (SSA), it analyzed the Office of
Personnel Management’s (OPM) 27 leadership competencies—and reviewed leading
human resources agencies and companies—to identify which competencies were most
essential for successful leaders. Upon completion of this review, SSA's Office of
Learning hosted a national workgroup of SSA leaders to review its findings and
recommend which competencies were most essential for success at SSA. While the
SSA managers recognized the importance of each of the 27 OPM competencies, they
expressed the belief that 27 were too many for SSA to deal with at once. The
managers originally recommended 11 of the OPM competencies. In subsequent
discussions among SSA stakeholders, the number of competencies increased to 15.
Recently, the number of leadership competencies increased to 28 OPM competencies
and 16 SSA critical competencies, as shown below. 1




1
  The illustration depicts the leadership competencies at various levels. Executives include employees in
the Senior Executive Service (SES) and participants in the SES candidate development program (grade
13 with a year of experience, grade 14, and grade 15). Managers generally include grades 13 to 15,
although grade 12 employees with 1 year of supervisory experience are eligible to attend training at
leadership symposiums. Supervisors include all employees who are designated as supervisors or who
have leadership roles, regardless of grade. The last group of competencies includes all grade levels.
                                                                                      Appendix F

The Social Security Administration’s
Competency Process
The Agency established a seven-step competency process for evaluating the
employees within its mission-critical occupations (MCO). See below for a flowchart and
description of this process. 1




                        STEP 1                                               STEP 2
                 DEVELOP MODEL                                           SMEs VALIDATE
                                                                            MODEL




                    STEP 3 & STEP 7                                       STEP 4
                     COMPETENCY                                      DETERMINE
                     ASSESSMENT                                      SKILL GAPS




                          STEP 6                                         STEP 5
                      IMPLEMENT                                    DEVELOP
                     IMPROVEMENT                                 IMPROVEMENT
                         PLAN                                        PLAN



Step 1—Develop the Competency Model

This step includes identifying competencies for the occupation, competency names and
definitions, and subject matter experts (SME). SMEs are non-bargaining unit or
supervisory employees in the MCO being reviewed. The SMEs work in partnership with
the Human Capital Planning Staff (HCPS) to develop the competencies for their
series/positions.

1
    This process may vary and is used in some, but not all situations.

                                                      F-1
SMEs are trained by HCPS so they understand the entire process and their role in the
competency definitions and identification. For example, SMEs are trained on the
competency definition, competency characteristics, competency assessment process,
and standard operating procedures for competency analysis.

According to the Agency's competency protocol, the competency model should include
both general and technical competencies. General competencies are required of all
incumbents in the occupation, regardless of level, expertise, or specialty, while
technical competencies may show variation by grade level and specialty area. Further,
the model should be based on extensive research of the duties and knowledge required
for the position. Potential sources include position descriptions, vacancy
announcements, and Office of Personnel Management studies.

Step 2—Validate the Model Using Subject Matter Experts

During this step, the SMEs validate the competency model and definitions. Also, SMEs
identify the level of importance, skills needed at entry, and value of competencies. In
addition, SMEs identify the proficiency levels for each grade level of the occupation.
Various worksheets and forms are used to facilitate this process.

Step 3—Assess Competencies of Current Staff

First, HCPS identifies employees in the targeted occupation. Second, managers and
employees are surveyed on the proficiency levels of the identified competencies in the
MCO. Before the assessment, managers and supervisors identify current and future
(1 to 3 years) competency needs and proficiency levels. The managers then assess
each of their employees on the identified competencies by rating them on the
proficiency level and determining the competency gap. Each competency is assessed
against three (basic, intermediate, and advanced) or six (none, basic, foundational,
intermediate, advanced, and expert) proficiency levels.

The Agency uses an Internet-based survey software from an outside vendor or an
Excel spreadsheet to identify competency gaps.

Step 4—Determine Competency Gaps

After managers rate each employee, the scores are totaled for each competency. This
step involves comparing the needed competency proficiency levels with the actual
proficiency level of the employees. The difference between the two is the competency
gap between the staff’s current skill/proficiency level and the desired level. This
involves a pre-test survey to discern competency proficiency levels of the MCO
workforce. A Gap Analysis Report is prepared to document the competency gaps.




                                          F-2
Step 5—Develop Improvement Plan and Timeline

After the gaps are identified, the Agency develops an Improvement Plan that outlines
how it intends to close the gaps. This involves setting goals, targets, and milestones.
When developing the plan, the Agency determines which competency to target for
competency gap closure. The largest or more significant gaps for specific
competencies indicate areas where improvement plans are needed. The Agency
strategically targets the gaps that help carry out the Agency’s mission and priorities.
Also, the Agency develops strategies to improve employee competency levels including
training, recruitment, mentoring, promotions, hiring, and seminars.

A timeline is developed for the improvement plan and subsequent competency gap
assessment. Generally, the plan is to have the gaps closed within 2 quarters. The
employees will be reassessed in the fourth quarter.

Step 6—Implement Improvement Plan

The next step in the process is to implement the strategies according to the
improvement plan. The timeline is used as a guide for when to conduct and complete
development strategies. The Agency prepares and submits a Progress Report
(formally the Implementation Plan) to the Office of Personnel Management. The
Agency reported it normally takes about 2 quarters to fully implement facets of the
approved improvement plan.

Step 7—Reassess Competencies of Current Staff

After the strategies are completed, the Agency reassesses employee competencies in
the targeted occupation. The results of the second survey, when compared with the
results of the series' baseline survey, provide the data and percentiles that indicate
improvements in the specific competencies and reductions of gaps within the specific
competencies. Depending on the results of the competency assessment, the Agency
will continue with the improvement plan or adjust the improvement plan. The Agency
will reassess (after post-test) and report to HCPS for sharing with the Office of
Personnel Management. The Agency prepares and submits a Measure Results Report
that reports the extent to which goals were achieved. It also includes an updated
Competency Profile and MCO Resource Tables.




                                          F-3
                                                                       Appendix G

Training Methods
The Social Security Administration (SSA) provides training to its employees nationwide
using various methods, including classroom, online, video on demand (VOD),
interactive video teletraining (IVT), and SSA Learn.

•   Classroom. SSA offers an array of classroom training each month at its
    Headquarters in Baltimore, Maryland. For example, in Calendar Year 2009, training
    was available in computer skills, Title II/XVI fundamentals, managing projects and
    priorities, basic analyst, business writing and grammar, and contract officer technical
    representative.

•   On-line. Training courses are also available on-line from the Office of Learning's
    Website. The classes offered fall into several categories, including computer skills,
    cross programs, disability, Title II, Title XVI, management, etc.

•   VOD. The VOD training courses are offered at the national, regional, and
    component levels. The national VOD courses included training on computer skills,
    disability, Medicare, service representative, Title II, Title XVI, etc. Regional VOD
    courses included training for SSA's regions as well as the Office of Central
    Operations. The component VOD content included training for employees in the
    Office of Communications and the Office of Disability and Adjudication Review.

•   IVT. Studios broadcast to Social Security and disability determination services
    employees. SSA has seven IVT studios. Studios 1, 2, and 7 are in Baltimore,
    Maryland, and provide in-service training. Studio 3 is in Kansas City, Missouri, and
    provides Title II Claims Representative Entry Level training. Studio 4 is in Atlanta,
    Georgia, and provides Title XVI Claims Representative entry level training. Studio 5
    is in Dallas, Texas, and provides Service Representative entry-level training. Studio
    6 is in Seattle, Washington, and provides Core, Area Systems Coordinator/Site LAN
    Coordinator, Automation Training Specialist, and transition to leadership training.

•   SSA Learn. This is an Internet-based e-Learning site with over 3,000 on-line
    courses available to employees at work and at home. The Office of Learning's
    Website contains a matrix linking leadership competencies to related courses.
    These are short online courses available through SSA GoLearn to help supervisors
    learn more about specific subjects grouped in accordance with the Agency identified
    critical competencies.
                                                                                  Appendix H

Competency-Based Training for Selected
Mission-Critical Occupations
                                                                                       Percentage of
     Mission-                                                      Delivery of
                                       Course Title and                                  Staff Who
     Critical       Position                                      Competency
                                         Description                                   Completed the
    Occupation                                                   Based Training
                                                                                         Training 1
                                    CR Entry-Level
                                    Training provides
                                    basic information on
                                    program-specific       Students attend
                                    aspects of the CR      the entry-level
                                                           course in either a
                                    position, enabling staff                          100 percent of
                                    to perform essential   classroom setting          newly
                     Claims         job functions.         or by Interactive          hired/promoted
                  Representative                           Video Teletraining         employees
                      (CR)          CR Advanced Level      (IVT). The                 designated as a
                                    Training provides      Advanced Course            CR since
                                    information on more    is conducted by            October 2003.
        0105                        advanced topics of the Video on Demand
       Social                       Title II/XVI program,  (VOD).
     Insurance                      enabling CRs to
     Specialist                     perform these job
                                    duties.

                                    CA/CTE Basic Entry
                                    Level Training
                                                                                      100 percent of
                     Claims         provides basic
                                                                                      newly
                    Authorizer      information on
                                                               Traditional face-to-   hired/promoted
                   (CA) Claims      program specific
                                                               face classroom         employees
                    Technical       aspects of the CA and
                                                               training.              designated as a
                    Examiner        CTE positions,
                                                                                      CA or CTE since
                     (CTE)          enabling trainees to
                                                                                      July 2006.
                                    perform essential job
                                    functions.




1
 Since the employee population continuously changes, we did not test and verify the training completed
by staff within these mission-critical occupations.

                                                  H-1
                                                                    Delivery of       Percentage of
     Mission-
                                       Course Title and            Competency           Staff Who
     Critical       Position
                                         Description                  Based           Completed the
    Occupation
                                                                     Training            Training

                                  Transition to Leadership
                                  (TL) 101 Welcome to
                                                 2
                                  Management is for all
                                  newly appointed
                                  supervisors and
                                  management staff to
                                  complete within 6 months               IVT
                                  of assignment to their
                                  position. This course
                                  consists of 12 hours of
                                  instruction covering
                                  personnel administration
                                  core topics.
                  Management                                                          100 percent of
        0105        Support                                                           new members to
                                  TL 201 Running Your
       Social      Specialist                        3                                the management
     Insurance        and         Field Operation is Part II                          team as they
     Specialist    Operations     of the TL 101 course and                            move into their
                   Supervisor     is mandatory for all new                            positions.
                                  supervisors and
                                  management staff to
                                  complete within 1 year of
                                  appointment to a position
                                                                      IVT and
                                  in a field office processing
                                                                     Classroom
                                  center or teleservice
                                  center. The TL 201
                                  consists of up to 22 hours
                                  of instruction to orient the
                                  new supervisor quickly
                                  into management
                                  processes and personnel
                                  administration.




2
 The competencies enhanced by this training are conflict management, teambuilding, accountability, and
creativity/innovation.
3
  The competencies enhanced by this training are teambuilding, accountability, technology management,
financial management, quality service, interpersonal skills, integrity/honesty, and oral and written
communication.

                                                 H-2
                                                                    Delivery of        Percentage of
     Mission-
                                       Course Title and            Competency            Staff Who
     Critical       Position
                                         Description                  Based             Completed
    Occupation
                                                                     Training             Training
                                                            4
                                  TL 301 Nuts and Bolts is
                                  a 5-day course for all new
                                  supervisors and
                                  management staff to
                                  complete within 1 year of
                                  assignment to the new
                                  position. This course
                                  explains in greater depth
                                  the core topics addressed
                                  in the IVT course TL 101
                                                               Face-to-face
                                  and portions of TL 201. In
                                                               Classroom
                                  addition, several additional
                                  topics are addressed such
                                  as: Federal Payroll and
                                  Personnel System,
                  Management      Management Time and                                 100 percent of
        0105        Support       Attendance System,                                  new members to
       Social      Specialist     Leave Administration,                               the management
     Insurance        and         Benefits, Performance                               team as they
     Specialist    Operations     Management, and                                     move into their
                   Supervisor     Financial Management.                               positions.

                                  TL 401 Leading People 5
                                  is a 5-day program for all
                                  new supervisors and
                                  managers to complete
                                  within 1 year of
                                  appointment to a
                                  supervisory position. This      Face-to-face
                                  week-long program               Classroom
                                  includes topics such as
                                  Leadership, Teambuilding,
                                  Conflict Management,
                                  Diversity, Accountability,
                                  Creativity and Innovation,
                                  and Communication.



4
 The competencies enhanced by this training are technology management, financial management,
Human Resource management, diversity, interpersonal skills, integrity/honesty, and written
communication.
5
 The competencies enhanced by this training are conflict management, teambuilding, accountability, and
creativity/innovation.

                                                 H-3
                                                                Delivery of    Percentage of
  Mission-
                                     Course Title and          Competency        Staff Who
  Critical         Position
                                       Description                Based        Completed the
 Occupation
                                                                 Training         Training

                                 BA/Benefit Technical
                                 Examiner (BTE) Basic                          100 percent of
                                 Entry Level Training                          newly
    0901                                                       Traditional
                    Benefit      provides basic information                    hired/promoted
   Legal                                                       face-to-face
                   Authorizer    on program-specific                           employees
Administrative                                                 classroom
                     (BA)        aspects of the BA and BTE                     designated as a
  Specialist                                                   training
                                 positions, enabling                           BA or BTE since
                                 trainees to perform                           July 2006.
                                 essential job functions.

                                 SR Entry Level Training       Students
                                 provides basic information    attend the
                                 regarding aspects of the      entry level
                                 Title II and XVI programs     course in
                                 that will enable new SRs to   either a        100 percent of
                                 perform essential job         classroom       newly
    0962            Service      functions.                    setting or by   hired/promoted
   Contact       Representative                                IVT.            employees
Representative       (SR)       SR Advanced Training                           designated as a
                                provides information about                     SR since
                                more advanced topics of        The             October 2003.
                                the Title II and XVI           Advanced
                                programs that enable new       Course is
                                SRs to perform their job       conducted by
                                duties.                        VOD.




                                           H-4
                                                                Delivery of   Percentage of
  Mission-
                                      Course Title and         Competency       Staff Who
  Critical          Position
                                        Description               Based       Completed the
 Occupation
                                                                 Training        Training

                                   TSR Basic Entry Level
                                   Training provides basic
                                   information on program
                                   specific aspects of the
                                   TSR position, enabling
                                   trainees to perform                        100 percent of
                                   essential job functions.                   newly
                                                               Traditional
                   Teleservice                                                hired/promoted
                                                               face-to-face
                  Representative   TSR Advanced Entry                         employees
                                                               classroom
    0962              (TSR)        Level Training provides                    designated as a
                                                               training.
   Contact                         information on more                        TSR since
Representative                     advanced topics of the                     December 2004.
                                   Title II and XVI
                                   programs, enabling
                                   trainees to respond to
                                   telephone inquiries from
                                   the public.

                  Teleservice
                                    See training above for Management Support Specialist and
                    Center
                                                     Operations Supervisor.
                  Management

                                   Legal Assistant
                                   Training Program                           100 percent of
                                   provides basic                             newly
                     Case                                      Classroom
                                   information on program                     hired/promoted
                   Technician                                  training.
                                   aspects of the Senior                      employees since
                                   Case Technician/Case                       2002.
    0986
                                   Technician job functions.
Legal Assistant
                                   Legal Assistant
                                   Training Program                           100 percent of
                                   provides basic                             newly
                     Legal                                     Classroom
                                   information on program                     hired/promoted
                   Technician                                  training.
                                   aspects of the Senior                      employees since
                                   Case Technician/Legal                      2002.
                                   Technician job functions.




                                             H-5
                  Appendix I

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:      May 17, 2010                                                            Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, "Mission-Critical Occupation Core
           Competencies" (A-13-08-28099)--INFORMATION

           Thank you for the opportunity to review and comment on the draft report. We appreciate
           OIG’s efforts in conducting this review. Attached is our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                       I-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "MISSION-CRITICAL OCCUPATION CORE COMPETENCIES"
A-13-08-28099

Thank you for acknowledging our leadership role in addressing human capital challenges and our
commitment to meeting those challenges while satisfying the needs of the American public we
serve. We continuously strive to improve the knowledge, skills, and competencies of our
employees, particularly those in mission critical occupations (MCO). As we identify competency
gaps, we increase the quality and relevance of our training and work toward improving the
proficiency of all employees. We schedule classes to coincide with hiring and provide content
rich entry-level training to new hires, especially those in MCO positions.

See below for our responses to your specific recommendations:

Recommendation 1
Use a risk-based approach to identify competencies for the remaining positions in the GS-0105,
0901, 0962, and 0986 series and develop and implement a strategy to periodically assess the
relevancy of the competencies.

Response
We agree. To the extent resources permit, we will continue to identify competencies for these
positions and implement a strategy to periodically assess the relevancy of the competencies.

For these four positions, we face a significant challenge in identifying competencies, assessing
gaps, and then closing those gaps. Within the GS-105 series alone, there are more than 63
organizational position titles at varying grade levels ranging from entry level through Associate
and Regional Commissioner. Because of this, the competencies for each position and grade will
vary.

We also appreciate that you acknowledge our efforts to identify the competencies for the GS-105
series at the GS-5/7 level. We are taking further actions in this area and have convened a
workgroup to review other positions in the GS-105 job series. The workgroup is rewriting the
position descriptions for the mission critical occupations of Claims Representative, Service
Representative, Benefit Authorizer, Claims Authorizer, and Technical Expert. It will then
develop job analyses, rating criteria, career-ladder plans, and performance expectations for the
positions. The workgroup will then expand its review to the District Manager, Operations
Supervisor, Module Manager, and Assistant Module Manager positions.

Recommendation 2
Conduct analysis to determine whether competency gaps exist in the GS-0105, 0901, 0962, and
0986 series. If appropriate, develop and implement strategies to address any identified
competency gaps.

Response
We agree in principle. To the extent resources allow, we will perform this analysis.



                                               I-2
                                                                     Appendix J

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley Todd, Director, Evaluation Division

   Melinda Padeiro, Acting Audit Manager

Acknowledgments

In addition to those named above:

   Melinda Lockhart, Auditor-in-Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-13-08-28099.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
